                                                    NATIONAL SCIENCE FOUNDATION
                                                         4201 WILSON BOLlLEVARD
                                                        ARLINGTON, VIRGINIA 22230




                          OFFICE OF
                      INSPECTORGENERAL




                        MEMORANDUM
I

I




                        DATE: April 18,1996
I -   - - . .-   ..        --
                                                                ____ ..   __
                        TO: Csse #I951 10046
I




                        FROM:



                        RE:

                                  On November 20, 1995, OIG investigators received an anonymous allegation that
                          within the last two years, former NSF employee-              had submitted a falsified


                                                                   '
                          C.V. in a proposal to IVSF's Directorate for Education and Human ~esources.-
                      w
                      sa'             appointed to the                                                 on a
                          temporary assignment on April 17, 1990.          was employed by NSF for 49 days ending
                          on July 16, 1990.

                              We reviewed the on-line proposal system and discovered t h a r had received
                        one NSF award                 ) of $50.000 in August 1990 to research a ~roiectentitled

                        reviewed the program jacket and discovered that no C.V. was contained in the jacket. We
                        obtained'         Official Personnel File from Human Resource Management (HRM) and
                        reviewed his application for employment to NSF. In the section of the application
                        detailing education,        stated that he earned a Ph.D. degree in 1968 from the
                        University of California at San Francisco, a Masters degree in 1962 and a Bachelor's
                        degree in 1959 from the University of Minnesota at Minneapolis.

                                We contacted the University of California and the University of Minnesota and
                        verified tha                  did earn the a Ph.D. degree, a Masters degree and a
                        Bachelor's degree from the respective universities. The allegation of a falsified C.V. has
                        not been substantiated. At this time the case is closed.
